No.

In the

Supreme Court ofthe United States
JONNAVEN JO MONALIM ANd MISTY MARIE
MONALIM,
Petitioners,
v.

HAWAIIUSA FEDERAL CREDIT UNION,
Respondent.
a
On Petition for a Writ of Certiorari
to the Supreme Court of the State of Hawaii

a

APPENDIX: EXHIBITS 6 THROUGH 9
GARvVrcron Dusrx
Counsel ofEecord
DusrN Lew Orrtcns
55 Merchant Street, Suite 3100
Honolulu, Hawaii 96813
Telephone: (gog) rez-zsoo
Facsimile: (eog) sze'zzag
E

-Mail : gdubin@dubinlaw.net
A t torn ey

for

Pe ti tion e rs

EXHIBIT 6

*** FoR PuBLICATIoN IN WESTIS ITAI{AI.I

REPORTS

AIID PACIFIC REPORTER

***

Electronically Filed
Supreme Gourt
scwc-16-0000807
30-APR-2020
10:09 AM

IN THE SUPREME

COURT OF THE STATE OF HAWAI.I

---o0o--HAWAIIUSA FEDERAL CREDIT UNION,
Respondent / pl-ainti ff-Appel 1ee,
ltc

JONNAVEN JO MONALIM; MISTY MARIE MONALIM,
Petition er s / De f endants -Appel lants,

and
ASSOCIAT]ON OF APARTMENT OWNERS OF BEACH VILLAS AT KO OLINA'
by its Board of Directors; KO OLINA COMMUNITY ASSOCIATION/ INC.

a Hawai'i nonprofit corPoration;

Re

spondents / De f endants -Appe1 lees

.

scwc-16-0000807
CERTIORAR] TO THE INTERMEDIATE COURT OF APPEALS

(CAAP-16-0000807; CIV. No. 10-1-1388)
APRrL

30,

2020

CONCURRING AND DISSENTING OPINION
IN WHICH RECKTENWALD, C.J

BY NAKAYAMA, J
JOINS

This case involves a credit union enforcing the terms
of two mortgages that the mortqagors granted as aSsurance that

'

*** FoR PUBLICATIoN IN WEST,S HA!{AI.I

REPORTS

AIID PACIFIC REPORTER

***

they would repay the loans they received from the credit union

to purchase an investment property. As a result of the
mortgaqors' failure to make their loan payments, the property
was sold at a public foreclosure auction to a third party bidder
who placed a

bid that was more than the taxed assessed val-uation

of the property but less than the mortgaqors' outstanding debt.
Because the sale proceeds were not sufficj-ent to fully satisfy
the mortgagors' outstanding debt to the credit union, the credit
union exercised its rights under the mortgages and obtained

a

deficiency judgment against t.he mortqagors. The deficiency
amount was

calculated, in accordance with Hawai'i's long-standing

practice, based on the difference between the sale proceeds
the total outstanding debt. The Majority opines that the

and

method

the circuit court used to calcufate the deficiency amount was
unfair.

I respectfullY disagree.
The Majority adopts a new rule that will chanqe

Hawai'i's traditional- method of calculating deficiency judgments.
Under the new rufe, mortgagors are entitled to a hearing to
determj-ne the "fair market value" of a property at the time of

a

foreclosure sale. The circuit court will be required to
calculate the amount of the deficiency judqment based on a new
formul-a in which the greater of the "fair market value" or the
court-confirmed sale price will be deducted from the outstandinq
debt.
2

*** FoR pUBLrcATroN rN wEsTf s

IIAWAT'I REPORTS AIiID PACIFTC REPORTER

***

claiming that ..the traditional approach can result in
unlust enrichmeTrL," Majorj-ty at 3, the Majority rel-ies on

a

hypothetical unjust enrichment windfall to justify adopting the
new

rule.

Parts III(C) and (D) of the Majority opinion are

premised on preventing such an inequitable resul-t that did not

occur in this case and is not supported by the record.

See

Majority at 26-5t. I therefore dissent from parts III (C) and
(D) of the Majority oPinion.

I agree with Part III (B) of the MajoritY oPinion,
which holds that the circuit court failed to address the
mortgagors' laches argument. See Majority at LB-26. However, I
believe that a review of the record reveals that the mortgaqors'
laches argument fails on the merits because the mortgagors did
not demonstrate that the delay was unreasonable under the
circumstances or that they were prejudiced by the de1ay.

I therefore respectfully concur in part and dissent in
part.
I.

BACKGROT'ND

Respondent/pfaintiff-Appell-ee

HawaiiUSA Federal Credit

Union (the credit union) is a not-for-profit
union.

federal credit

In 2008, Petitioners/Defendants-Appellants

Jonnaven Jo

Monalim and Misty Marie Monalim (the Monal-ims) apptied for and

received two foans from the credit union to purchase a portion
of t.he Beach Vil-tas at Ko Otina condominium project in Kapolei,
3

***

TloR PuBLICATIoN

IN !{EST,S

HAWAI

.I

REPORTS A}ID PACIE.IC REPORTER

***

Hawai'i. The record indicates that this property was not the
Monalims' residence and that it was one of five properties the
Monafims owned on O'ahu.

The first

loan (note #1) was for $911'200.00 and the

second l-oan (note #2) was for $113, 900.00. The loans were

secured by mortgages, which were recorded as Iiens against the
Ko Olina property.

The mortgages required the Monalims to pay

to the credit union any resulting deficiency in the event of
foreclosure.
Two years after

the loan was made, the Monalims

stopped making the required payments on both note #l- and note

#2

and the loans went into default

A.

The Foreclosure Proceedings
On June

24, 20L0, the credit union commenced

foreclosure proceedings against the Monalims to enforce its
rights under the mortqages. The credit union alleged that the
MonaIj_ms

defaulted on their Ioan obligations and owed

iI,024,428.04 on note #l- and
was entitled

$121,,541

.20 on note #2 and that it

to foreclose the mortgage, sel1 the property,

obtain a deficiency judgment for any outstanding debt that

and
was

not satisfied by the proceeds from the foreclosure sale.
The credit union moved for summary judgment and an

interlocutory decree of foreclosure. The Monalims failed to
appear at the March 23, 20IL summary judgment heari-nq.
4

The

*** FoR PUBLICATIoN IN

WEST'S HAI{AI

.I

REPORTS

AIID PACIE.IC REPORTER

circuit court granted the motion and, on April 13,

***

201,1,, entered

a foreclosure decree and judgment. The circuit court l-ater set
aside the forecfosure decree and judgment upon the

assertion that they had not been served with the
judgment. motion

Monal-ims'

summary

or notified of the hearing date.

Both parties appeared at. a subsequent hearing on July

6, 20II.

On

August 29, 201'7, the circuit court issued a

new

foreclosure decree and judgment.l The forecfosure decree ordered
foreclosure of the mortgage liens that secured notes #1 and

#2,

ordered the property to be sol-d at a public auction, appointed

a

commissioner to sell the property, and ordered a hearing to

confirm the foreclosure sale. The forecfosure decree al-so
provided for a deficiency judgment in favor of the credit union

in the event the safe proceeds did not sufficiently satisfy the
Monalims' outstanding debt:
At the hearing for confirmation of sale, if it
appears that proceeds of the safe of Lhe Mortgaged
Property are insufficient to pay al-l amounts due and
owing to Ithe credit union], Ithe credit union] may
request a deficiency judgment 1n its favor and
against Ithe Monalims], jointly and severally, for
the amount of the deficiency whlch shaff be
determined at the ti-me of confirmation and have
immediate execution thereafter.
The Monalims appealed the foreclosure decree and

judgment on September 28, 20LL. After more than one year passed

same

The new forecl-osure decree and judgment were substantially the
1
as the April 13, 20IL foreclosure decree and judgment.
5

*** FoR PUBLICATIoN IN

VIEST'S HAWAI

.I

REPORTS ATiID

PACIFIC REPORTER

without the Mona]ims filing their opening brief, the

***

ICA

dismissed the appeal.

While the appeal was pending, the court-appointed
commissioner conducted the public auction. At the time of the

auction, the City and County of Honolulu

va.l-ued

the property at

$703,600.00. The Commissioner mailed a "Fact Sheet" with

information about the property to "a number of different persons
and parties, which Ithe] Commi-ssioner fel-t might be interested

in bidding for the subject premises, or who [he] felt might

be

in a position to refer the information to other interested
parties or to their clients. " The Commissioner arranged two,
three-hour open house dates for viewing by the general public.
Finally, the Commissioner published a classified advertisement
describing the property and stating the dates and times for the
open houses and the public auction in the Sunday Honolulu Star

Advertiser.
The Commissioner received sixteen bids at the public

auction. The highest bid was $760,000.00' which exceeded the
City and County's val-uation of the property by $56'400-00.
Notably, the highest bidder was a third party who is
unaffiliated with the credit union.
On December 1-, 201J,

the circuit court held a hearing

on the credit union's motion to confirm the forecfosure sale.
No interested bidders appeared at the hearing and t.here was no
6

***

FoR PuBLICATIoN

IN IIEST'S HA9IAI .I

REPORTS

AIID PACIFIC REPORTER

***

request to re-open the bidding process. The Monalims orally
moved

for a further hearlng on any defi-ciency judgment, which

the court granted.2
On December

22, 207I, the circuit court enLered an

order confirming the sale in the amount of $760'000.00
(confirmation order) and judgment. The court concluded that the
$760r000.00 purchase price was "fair and reasonable."

The

confirmation order expressly provided that "Since the proceeds
from the sale of the Mortgaqed Property are i-nsufficient to

fully satisfy the amounts due to lthe credit union], that.

a

motion for deficiency judgment may subsequently be filed by Ithe

credit unionl against lthe Monalimsl, jointly and several]-y."
The Monalims did not appeal the confi-rmation order and judgment.

B.

The Motion

for Deficiency

On January

.fudgment

12, 2016, four years after the court

entered the confirmation order, the credit uni-on moved for

a

deficiency judgment against the Monalims as provided under the
forecfosure decree and confirmation order. The credit union set

forth a calcul-ation of the deficiency amounts for notes #1 and
+2.

The Monalims opposed the motj-on for deficiency

judgment on grounds that the deficiency judgment was barred by
201-6

The record indicates that no other hearing took place until the
2
hearing on the credit union's moLion for a deficiency judgment.
7

***

FoR PUBLICATIoN

IN 9IEST,S HAWAI.I

REPORTS A!{D

PACIFIC REPORTER

***

laches and that the met.hod of calculating the amount of the

deficiency violated their constitutional- right to due process.
In reply, the credit unj-on argued that the dismissal
of the Monalims' appeal of the foreclosure decree and judgment
precluded them from challenging the credit union's right to a
deficiency judgment. Reqarding the amount of the deficiency
judgment, the credit union argued that both the foreclosure sale
and the confirmed bid price were fair and reasonabl-e and, thus,

the confirmed sal-e price was the proper basi-s from which to
calcul-ate the deficiency amount. The credit union afso noted
that "Hawaii law does not require that a motion for deficiency
judgment be filed within a certain time from the date of
confirmation. "
on october 13, 20L6, following a hearing on the motion

at which bot.h parties appeared, the circuit court issued an
order granting in part and denying in part the credit union's
motion for deficiency judgment and entered a deficiency judgment

against the Monalims in the amount of $493,282.04. The circuit
court denied the credlt union's request to include interest that
accrued from the date of entry of the confirmation order

and

judgment to the date the credit union filed its motion for

deficiency judgment. Any interest that accrued during this
four-year time period is not included in the deficiency amount.
8

*** lloR PUBLICATIoN IN

WEST/S HAI{AI

II.

.I

REPORTS ATiID

PACIFIC REPORTER

***

DISCUSSION

I dissent from the Malority/s

holdinq in parts III(C)

and (D) because it is clear to me that the facts of this case

do

not support the adoption of the Majority's new rule.
I concur with the Ma;ority's holding in part III(B)'
but I believe that the laches argument that the Monalims
presented betow and on application for writ of certiorari fails
on its merits.
A

The facts of this case do not support the adoption of the

Majority's new rule.

calculated deficiency

Hawai'i has historically

judgments by deducting the foreclosure sale proceeds from the

outstanding mortgage debt..

We

have instructed that , if the

highest bid at a foreclosure sale is "so grossly inadequate as

to shock the conscience [, ] " the court may refuse to confirm the
sal-e. Wodehouse v. Hawaiian Trust Co. 32 Haw. 835, 852 (Haw.
Terr. 1933).
The

calculating

Majority rejects Hawai'i's traditional approach to

deficiency )udqments and instead adopts a new rule

based on the possibility

that the deficiency amount coufd

inequitable to the mortgagort a result that plainly
occur in this case.

be

did not

In vacatinq the ICA's Judgment on Appeal'

the Majority adopts a new method of calculating

a deficiency

judgment based on the greater of the property's

"fair

9

market

*** FoR PUBLICATIoN IN

WEST,S HAWAI

.I

REPORTS AIiID

PACIFIC REPORTER

***

value" at the time of the forecfosure sale, ds determi-ned at

an

evidentiary hearing, or the court-confirmed safe price.
Maj

ority at

3

First, I bel-ieve that by rati-onalrzrng the adoption of
this

new method based on

the possibility that the deficiency

amount in other foreclosure cases could be inequitable, the

Majority oversteps the authority entrusted to this court to
determine, in each case, If the law was applied correctly to

specific set of facts.
self-restraint

a

The Majority should exercj-se judicial

in this case and feave the decision of whether or
Second, the

not to enact this new rul-e to the Legislature.

new

rul-e wilt require the court to select from the fair market value
estimations of competinq experts.

The additional

time

and

expense of this process wil-1 unnecessarily burden both the

parties to foreclosure actions and the courts. Finally, the new
rule wil-l not, as the Majority avers, protect both parties to
the mortgage.
First, the facts of thj-s case do not support this
court's usurpation of the Legislature' s role and the judicial
adoption of a new deficiency judgment ru]e.

The Majorit.y

cautions that the conditions surrounding a foreclosure sale
al1ow a mortg,agee to recover more than the original mortqaqe

debt., "granting mortgagees a windfall they are not due-"

Majority at 29. The Majority sets forth the following
10

may

*** FoR PI'BLICATIoN IN !{EST'S HAWAI.I

REPORTS AND

PACIFIC REPORTER

***

hypothetical-:
This situat.ion occurs, for example, when a mortgagee
purchases the property during a forecl-osure safe at a
price below its fair market value, obtains a
deficiency judgment for the difference between the
forecfosure price and the outstanding mortgage debt,
and then reselfs the property at or above its fair
market val-ue,

Majority at 28. Respectfully, this "situation" is far

removed

from what occurred in this case.
The record shows that the deficiency judgment wil-l not

unjustly enrich the credit union. In a 2077 tax assessment, the
year the property was sol-d at public auction, the City

and

county of Honol-ulu val_ued the property at $703,600.00.

The

Commissioner received sixteen bids at the public auction, the

highest of which, dL $760,000.00, exceeded the City and CounLy's
valuation of the property by $56'400.00. The credit union was
not the highest bidder; the highest bidder was a third party who
is unaffiliated with the credit union.3
Though the record lacks any evidence t.hat the t.ax assessed val-ue
3
of the property was greater or less than its fair market value, the Majority
speculates that the tax assessed val-ue was fess than the fair market value
and that therefore the property was purchased at befow fai-r market vafue.
The Majorit.y insists that the tax assessed vafue "is not competent direct
evidence of val-ue for purposes oLher than taxation" and, citing a Tennessee
case from L|OA, asserts that "[t]ax assessments of real estate are not always
Majority aL 4'7. Immediately
aimed at estimat.ing market value[.]"
thereafter, the Majority concedes that "Ia]ssessed vafues may also exceed
market values." Majority aL 48 n.29 (emphasis added).
The Majority implies that the fair markeL vafue at the time of
purchase was equivalent to the amount of the original morLgage, noting that
when the Monalims purchased the property, its tax assessed vafue was
$322,600.00 while the mortgage the Monalims executed on the property was
$1,025,100.00. Majority at 48. Just as the tax assessed value does not
necessarily equal the fair market value, however, neither does the amount of
the mortgage. The amount of the mortgiage can, in some situations, greatly
exceed the fair markeL value of the property.
(continued
.)
11

*** FoR PuBLICATIoN IN WEST,S

HAIIIAI

.I

REPORTS ATiID

PACIFIC REPORTER

***

No j-nterested bidders appeared at the confirmation of

sale hearing.

The circuit

party in the amount of
was "fair

court confirmed the sale to t.he third

$760r

000.00, which t.he court determj-ned

and reasonabLe."
The sale proceeds did not adequately satisfy the

outstanding debt and the circuit court subsequently awarded the

credit union a deficiency judgment in the amount of $493,282.04.
This total represents t.he remaininq amounts the

Monal-ims owed on

their mortgages when they stopped making payments fess t.he
The total- does not include
$7 50, 000 . 000 conf irmed sal-e price.
any accrued interest from the date of t.he confirmation order to

the date of the motion for deficiency judgment. Despite the
Majority's implication, if the Monalims pay the deficiency
judgment, the credit union wil-l- recover no more than what the

credit union is

owed on

the loans. The record clearly indicat.es

that the credit union wilt not be unjustly enriched by the
Monal-ims repaying

the

money

that they

owe.

Section 8.4 of the Restatement (Third) of Property:
Mortqages, which the Majority expressly adopts, "j-s aimed

primarily at preventing the unjust enrichment of the mortgagee."
s 8.4 cmt. a. (Am. Law Inst. 1991). Here, because there is no
possible scenario in which the credit union wil-l be unjustly
Notwithstandlng the Majority's conjecture, the record does not
indicate if the property sold at above or befow fair market value.

I2

***

FOR PUBLICATION

IN WEST'S IIAWAI.I

REPORTS A}ID

PACIFIC REPORTER

***

enriched, it is incomprehensible that the Majority chooses this
case to usurp the Leglslature's

role and enact a new deficiency

judgment rul-e. a
Tn light

of the facts of this case, I believe that

this court oversteps its role by adopting the new rule.
Justice Stone's dissenting opinion in

U.

S

. v. Butl-er

Quoting

291 U.S

1-, f9, (1936) (Stone, J., dissenting), Chief Justice Moon noted

that "the only check upon Ithe judicial branch's] exercise of
power is Iits]

own sense

of self-restraint.

alone, judicial self-restraint

For that reason'

is surely an implied, if not

an

expressed, condition of the grant of authority of judicial

review." Hac v. Univ. of Hawaii, I02 Hawai'i 92, 108, 73 P.3d
The Majority asserLs that it would be "imprudent" to "wait[] for
j-n
which
the mortqagee is unjustly enriched" before adopting the new
a case

4

rufe that the Majority justifies

prlmarily by claiming that the current

method al-l-ows mortgagees to become unjustly enriched. Majority at 46-47
n.28 .
Respectfully, it is a bedrock principal of the American judicial
system that courts wait to remedy injustice until injustice occurs rather
than attempt to prospectively resolve issues. While f acknowl-edge that this

court has enlered certain holdings prospectively, I believe that doing so is
not appropriate here, where the facts plainly do not support the adoption of
the new rule, the complicated effects of which render it better enacted by
the LegislaLure, if at all.
As Justice Bl-ackmun observed in his concurrence in James B. Beam
Distillins Co. v Georqia, 501 U.S. 529 , 54'7 (1991),
[u]nlike a legislature, we do not promulgate new ru.Les Lo
The nature of judicial
be applied prospectively only
review constrains us to consider the case that is actually
before us, and, if it. requires us to announce a new ru1e,
to do so in the context of the case and apply it to the
parties who brought us the case to decide. To do otherwise
is to warp the role that we, as judges, play in a
Government of limited powers.
(internal citations omitted)

.

13

***

FOR PUBLICATION

IN

WEST'S HAWAI.I REPORTS AI{D PACIFIC REPORTER

concurri-ng and dissenting, in which

46, 62 (2003) (Moon, C.J
Nakayama,

***

J. joins) (internal citations omitted)

.

The Majority's use of HRS S 667-I.5 to justify

the

judicial enactment of the new rul-e is unavailing. our
construction of statutes is quided by the following rules:
Fj.rst, the fundamental starting point for statutoryinterpretation is the language of the statute itself.
Second, where t.he statutory language is plain and
unambiguous, our sole duty is to give effect to its
plain and obvious meaning. Third, implicit in the
task of statutory construcLion is our foremost
obligation to ascertain and give effect to the
intention of the legislature, which is to be obtained
primarily from the language contained in the statute
i + ca l f

First Ins. Co. of Hawaii v.

A&B

Props. , 126 Hawai'i 406, 41'4, 27L

P.3d 1165, !I13 (2012) (internal- citations omitted)
The Majority asserts that, by enacting HRS S 667-I.5,

the Legisl-ature vested the courts with discretion to cal-culate
deficiency judgments by whatever method the courts choose.

Majority at 34-35. Respectfully, the Majority's interpretation
of HRS s 667-L.5 adds meaning to the statute that is not
expressed by its language and was not intended by the

Legislature.
HRS

S 661-I .5

(Supp

. 201'5) provides,

The circuit court may assess the amount due upon a
mortgage, whether of real or personal property'
without the intervention of a jury, and shal-l render
judgment for the amount awarded, and the foreclosure
of the mortgage. Execution may be issued on the
judgment, as ordered bY the court.

Neverthel-ess, the Majority insists that "the
I4

***

FoR puBLrcATroN rN wEsys HAvilAr'r REpoRTs AllD PAcrFrc REPORTER

legislature, through

HRS

***

S 661-I.5, has expressly provided that

the determination of the amount due in a deficiency judgment,
and thereby the method for its ca lculation, is entrusted to the
discretion of the courts." Majority at 38-39 (emphasis added).
The Majority clinqs to the Legislature's use of the word "may"
S 667-1.5. While the word "may" does confer dj-scretion
to the court to perform the fact finding function of assessing
the amount due upon the mortgage, it does not vest the court
in

HRS

with the authority to dispense wlth the longstanding traditionaf
method and to calculate deficiency judqments by whatever new
method the court deems appropriate.

First,

HRS

s 667-L.5 enabfes the court to assess "the

amount due upon a morLgage"

but makes no reference to deficiency

judgments or the method for their cal-cul-atj-on. By stating

"[t]he circuit court may assess the amount due upon a
the
and shal-l render judgment for
mortgage
foreclosure of the mortgagel,l"

HRS

s 661-1,.5 refers to the

determination of the amount due on the mortgage before

a

foreclosure sale takes place, before it is determined whether or
not a deficiency remains. s Indeed, even in the context of
The Majority asserts that this interpretation of HRS S 667-1.5 is
5
to longstanding precedent." Majority at 40. The
contrary
"directly
..1-ongstand.i-ng precedent" to which the Majority refers i-s an interpretation of
HRS S 661-7.5 expressed by the ICA in Bank of Honolufu, N.A., v. Anderson, 3
Haw. App. 545, 549-50, 654 P.2d,1,370, L314 (L982), which this court has never
referenced or adoPted.
(

15

continued

***

FOR

PI'BLICATION IN IIEST'S HAWAI.I REPORTS AIiID PACIFIC REPORTER ***

deficiency judgments, it makes sense that under the traditionalmethod of calculating deficiency judgments, whereby the

deficiency amount is the amount due on the mortgage l-ess the
forecfosure safe proceeds, the circui-t court should be abl-e to
compute this simple calcul-ation "without the intervention of

jury[.]"

HRS

a

S 661-I.5.

Moreover, while the statute permits the circuit court

to assess the amount due on a mortqage, it i-n no way "expressly
provid[es]" for the circuit court to create a new method of
calculating deficiency judgments that departs from the
traditional formula, nor does it expressly permit the court to
consider faj-r market vafue.

HRS

S 667-I.5 does not, on its

face, express what the Majority asserts that it expresses.
Nor does the legislative history of HRS S 661-L'5
indicate that the Legislature intended to provide the Hawai'i
courts with discretj-on to unilaterally implement a new method of
cal-culating deficiency judgments. Contra Majority at 4I.

The

only reference to deficiency judgments i-n the legislative
history of the statute, the languaqe of which has remained
largely unchanged since its enactment in 1859, is the following
Moreover, the Anderson inLe rpretation, which, I note, is not
..directly contrary" to this opinion's interpretation, is based excfusi-vely on
legislative history from L9':.1. Id. As the Ma;ority contends that the
language of HRS S 567-1.5 is so cfear and unambiguous that to look to
legislative history for explanation is not "appropriate[,]" Majority at 41,
1t is unclear how the Majority can simultaneously cfaim that the TCA's
i-nterpretation of the statute, based excl-usively on legislative history, is
control-f ing authoritY.

I6

***

FOR PUBLICATION TN WEST'S I{A9IAI

.I

REPORTS

AIID PACIFIC REPORTER

paragraph in the Senate Standing Committee Report for t.he

***

20L2

amendmenL:

Your Committee further notes thaL owner-occupanLs who
l-ose their primary residences to foreclosure suffer
harsh personal losses that leave them particularly
susceptibfe in cases where the lender may pursue a
deficiency judgment to coll-ect on any lnsufficiency
of the foreclosure sale proceeds to satisfy the debt.
As such, owner-occupants shoufd be provided with
greater refief from deficiency judgments. However,
your Committee notes there are concerns about
prohibiting deficiency judgments in the case of
refinanced mortgages, as many borrowers refinance
their mortg ages for more than they currentl v owe,
then use the difference to pay for cars, trips, or
other consumer items that are unrel-ated to the
purchase of the home
Although not addressed by the
amendments proposed by your Committee to this
measure, these concerns meri-t further dj-scussion.

S. Stand.

Comm.

Rep. No. 3325, in 20L2 Senate Journal, dt

1075

(emphasis added).

This description reveals how the Legislature
understood deficiency judgments to be calculated - "any

insufficiency of the foreclosure sale proceeds to satisfy the
debt." S. Stand.

Comm.

Rep. No. 3325, in 2012 Senate Journal,

at 1075. The description does not reference the fair market
value of the property, but instead refl-ects the traditional
formufa of outstanding debt Iess the foreclosure sale proceeds.

In addition, the Legisl-ature expressed concern about
limiting fenders' ability to pursue deficj-ency judgments,

even

in the case of a displaced owner-occupaotr6 due to the prevalence
of borrowers refinancing their mortgages for more than the value
5

The Monafims were not owner-occupants of the property
1,1

*** FoR PUBLICATToN rN wEsT, s HA!{Ar'I

of their home. see s. stand.

REPORTS AtilD

comm. Rep.

PAcrFrc

REPORTER

No.3325, in

***

2012

Senate Journaf , dL 1075. The position of the Legislature which

most recently amended

HRS

S 66'1-I.5, refl-ected by this Committee

Report, is at. odds with the Majorityrs characterization that

HRS

S 66i-I.5 grants the courts specific discretion to determine

how

to calcul-ate deficiency judgments. The Majority's
interpretation of HRS S 667-L.5 is misguided, as the statute
does not grant this court express permission to enact a
method for calculating deficj-ency judgments

new

'

Tf the state of Hawai'i adopts the new rule, the rul-e
shoul-d be enacted by the Legislature, not adopted by this court.
The Majority notes that twenty-three other states "statutorily
define a deficiency using the 'fair value' of the foreclosed
property." Majorit.Y at 29 n.18.

BY

contrast,

in Sostaric v

Marshall, 234 W. Va. 449, 453-54 (2014), the Supreme Court of
Appeals of West Virginia listed only four jurisdictions that
have adopted the new rule by judicial

Sostaric list

does

decision.

Though the

not claim to be exhaustive, it appears that

oritY of jurisdictions which have chosen to adopt
the new rule have done so by legislative action. In declining
to amend, by judicial decision, the longstanding rule that a

the vast

maj

mortgagor's deficiency is measured by the difference between the

of unpaid debt and the foreclosure safe proceeds, the
Supreme Court of Missouri opined that "It]he policy debate

amount

1B

***

FOR PUBLICATION

IN !{EST'S HAWAI .I

REPORTS ATiID

PACIFIC REPORTER

***

presented by the parties may explain why so many states have
chosen to deal with this issue by statute, rather than by

law[. ] "

First Bank v. Fischer & Frichtel

Inc.

364

S . W.

common

3d 2l_ 6,

222 (2012) (en banc) (noting that the balancing of competing

policies is best l-eft to the Legislature) . Clearly, t.his

new

rule carries broad policy implications with respect to the
mortgage industry.

Given courts' refative l-ack of expertise

on

these policy considerations, the new rule should not be adopted
through judicial activism.

It shoul-d be l-eft to the Legislature

to determine whether enacting the new rule wil-l- truly serve the
State's best interests.
In cases where a bank forecloses on a property, the
bank is the highest bidder with its credit. bid below market
vafue, the bank collects

a deficiency judgment that is based

on

the difference between the outstanding loan debt and the credit
bid, and the bank l-ater sel-l-s the property at market val-ue, the
bank may be unjustly enriched. However, that situation is so

far removed from the facts of this case that it defies reason to
understand why the Majority chose to adopt the new rul-e in this

case. I believe that this court should exercise judicial selfrestraint

and decline to change Hawai'i's method for calculating

deficiency )udqments to remedy a resul-t that did not occur in

I9

*** FOR PUBLICATION IN WEST'S

this

HAWAI

.I

REPORTS ATiID

PACIFIC REPORTER

***

case. t

second, the Majority's rul-e will unnecessarily burden

parties to a forecfosure action and Hawai'i courts. The
Majorityrs rule entitles any party whose property has been
foreclosed upon to an evidentiary hearing to determine t.he "fair
market vafue" of the property so that the deficiency judgment

wil-l be calcul-ated based on t.he greater of the "fair market
value" or the amount of the confirmed sal-e price in essence,
whichever number results in a lower deficiency amount. Majority

at

32.

The

Majority defines "fair market val-ue" as "the price

which would result from negotiation and mutual agreement, after
ample time to find a purchaser, between a vendor who is willing,

but not compelled to sell, and a purchaser who is willing to
bry, but not compelled to take a parti-cular piece of real
Majority at 27 n.17. Since these conditions do not
reflect the conditions that exist during a forecfosure sale, the

estate."

market will not determine the subjective "fair market value"
I acknowledge that under different circumstances/ the
1
determination of a property's fair market val-ue might be necessary to ensure
holding that the court may refuse to
fai-rness to the borrower. wodehouse,s
t'is
so grossly inadequate as to shock the
confirm a safe if the highest bid
that, where there are suggestlons
indicate
conscience,' coufd be extended to
is
sotd is objectively unfair' courts
property
the
which
that the amount for
32 Haw. at 852. For example,
Wodehouse,
See
further.
inquire
to
have a duty
the courL cou]d be required to calculate the fair market value in instances
where (1) the lender is the purchaser, (2) the borrower alleges that the sale
t.erms were unconscionable, or (3) the borrower alleges that the sal-e was
conducted fraudulentlY.
20

:*** FOR PUBLICATION IN WEST'S

the court will

HAWAI

.I

REPORTS ATiID

PACIFIC REPORTER ***

be forced to do so. t As the "fair

market value"

is contestable, we must assume that both parties' experts willtestify that different val-ues represent t.he "fair market value"
and that the circuit. court will be tasked with reconclling the

experts/ val-uations to determine the most. accurate "fair market
value. "

This method requires additional- time and forces al-l

parti-es to incur additional cosLs while the property, subject. to
foreclosure because the mortqagor failed to make l-oan payments'
remains in the mortqagior's possession.n
For example, Nevada law requires that "lb]efore awarding a
8
the court shal1 hofd a hearing and shalf take
deflciency judgment
evidence presented by either party concerning the fair market value of the
property sold as of the date of foreclosure safe." Nevada Revised Statutes
(NRS) S 40. 45'7 (Il . In addition, Idaho courts appear to deLermine fair market
Wilhelm v
value by selecting the "more credibfe" of competing appraisals
Johnston, 136 Idaho 145, L49 (200L) ('With respect to the Johnstons'
deficiency action, the district court found Ithe lender's] appraisal of the
property to be more credible than Ithe borrowerst ] appraisal, and thus
determined the fair market value of the property to be $63' 400 at the time of
the trustee's sale. ")

In support of its asserti-on that parties in jurisdictions that
9
foftow the new rule have not been unnecessarily burdened by the new rule's
additional requirements, the Majority cites to a West Virginia case which
notes that the West Virginia courts have not found that states folfowing t.he
new rufe "suffer from unsettl-ed forecfosure l-aws" and have not found that
those states' banking institutions "have been negatively affected" by the new
rufe. MajoriLy aL 44, citing Sostaric, 234 W. Va. aL 451. The West Virginia
court's findings, or lack thereof, have no bearing on the reality that
parties ln Hawaf i forecl-osure proceedings will now be burdened with the
additional cost and time required to hire competing experts to testify about
the fair market value of forecfosed-upon properties.
The Majority further contends that "parties may adduce evidence
value of the forecfosed-upon property in a variety of ways
fair
market
of the
that do not enLail significant additional expenditure." Majority at 45 n.26.
The Majority proposes that., for example, the owner of the property can simply
state his or her opinion of the property's fair market vafue. Majority at 45
n.26, citinq Cltv and Cty. of Honolulu v. Int.'l- Air. Serv. C o.. 63 Haw. 322
Neither the mortgagee nor the mortgagor would
332, 628 P.2d r92, 200 (1981)
proffer an impartial opinion of the fair
party
who
coufd
be a disinterested
market value of a property in the context of a highly adversarial deficiency
judgment proceeding. Moreover, the methods the Majority proposes for
(continued
.)

2I

*** FoR PuBLICATIoN IN IIESTIS

IIAWAI

.I

REPORTS ATiID

PACIFIC REPORTER

***

Finally, the Malority i-nsists that the new rule
"protects"

mortgagees

:

Logically, the maiority rule protects a mortgagee
against any loss that would occur from a safe of the
property at fess than its fair market val-ue because
t.he mortgagee retains the option of tendering a
credit bid for the amount of the outstanding mortgage
debt and obt.aining the property without additionaf
monetary payment if there are no greaLer bids.

Majority at 32. This arqument fail-s because even if the
mortgagee tenders a credit bid for the amount of the outstanding
mortqage debt and obtains the property' the mortgagee will stil1

not be made whol-e if the outstanding mortgage debt exceeds the
fair market value of the property. In addition, if, as here, a
third-party purchaser buys the property, if the new rul-e is
prospectively apptied and the third-party safe price is
determined to be less than the fair market value, the l-ender

will not recover the

money

it. lent to the borrower or be made

whole. Thus, the new rule will not "protect[] all parties to
the mortgage" Ln either scenario. Contra, Majority at 3.
of my concerns about the Majority's new rule,
that it is not supported by the fact.s of this case, that j-t wil-l
Because

burden all parties and Hawai'i courts, and that it will plainly

not protect all parties to a mortgage' T woul-d not adopt the
rule. I believe that, instead of usurping the Legislature's

new

determining fair market vafue, none of which have been used in the defi-ciency
judgment context, are Loo complicated for a lay person to engage with in
forming his or her opinion of the fair market va1ue. It is clear that an
expert opinion will be required to fairly establ-ish fair market value.
22

*** FOR PUBLICATION IN !{EST'S

HAVIAI

.I

REPORTS A}ID PACTFIC F.EPORTER

***

rol-e as lawmaker, this court should exercise judicial selfrestraint
B

its holding to the facts of this case.

and limit

The circuit court erred when it did not address the
Monalims' laches argument, but that argrument fails on its

merits.

I agree with the Majorit.y's holding in part III

(B)

that "the ICA erred in affirming the circuit court's Deficiency
Judgment

without the circuit court having demonstrably addressed

the Monalj-ms' laches defense." Majority at 25. However, r
believe that the Monal-ims' l-aches defense fail-s on its merits.
The doctrine of laches wj-11- apply only if two

conditions are met, " If] irst,
the plaintiff

there must have been a delay

by

in bringing his claim, and that delay must have

been unreasonabl-e under the circumstances

Second that

delay must have resulted in prejudice to It.he] defendant."
Ass'n of Apartment Owners of Royal Aloha v Certified

Msmt.

,

Inc., 139 Hawai'i 229, 234, 386 P.3d 866, 871 (2016) (int.ernal
citations omitted)

.

First, I do not believe that the four-year delay

was

unreasonable under the circumstances. The Monalims argued,

without support, that the delay was unprecedented and that the
credit union provided no explanation for t.he delay.

The

Majority cit.es only one case in which an appellate court held
that the trial- court should have refused to enter a deficiency
judgment on account of faches.

Majority at 18 citing E. Banking
23

*** FoR PuBLICATIoN IN ISEST'S HAWAI.I
Co

. v.

Robbins

, I49

N.

W

.

'7'7 9

,

7

REPORTS AI{D

PACIFIC REPORTER

80 (Neb. 1914) .

E

. Banki

***
Co.

however, is a 7914 case from the Supreme Court of Nevada in
which the petitioner waited more than L4 years to seek the

deficiency judgment. MajoritY at 18, id.

Moreover' the

Monalims argue that the credit union failed

to explain why the

credit union did not seek the deficiency judgment until four
years after the confirmation order. Though an explanation as to
why the credit union waited to seek the deficiency judgment

could have bolstered the credit union's argument that the delay
was reasonable, the credit union is not required to explain

Clearly, the Monalims were

it waited to collect on the debt.
notice that the credit union
judgment against them.

The

was

whY

entitled

on

to a deficiency

credit union's four-year delay in

seeking such a iudgment was not unreasonable, parti-cularly when
the court disallowed any interest accrued during those four
years to be included in the deficiency amount.
Furthermore, the Monalims' arguments that the delay
caused them prejudice are specious. The Monalims argue that

they woul-d have fil-ed for Chapt.er 7 Bankruptcy had the credit
union sought a deficiency judgment sooner, and that if they are

to pay the deficiency iudgment., it wifl "wipe out"
all of their financial gains since 20II. In so arguing, the
Monalims mistake the consequences of owing a debt with prejudice
now required

caused by delay in col-Iecting that debt.
24

*** FoR PuBLIC.ATIoN IN VIEST'S

IIAWAI

.I

REPORTS AIiTD

PACIFIC REPORTER

***

The credit union did not advise the Monal-ims not to

file for bankruptcy, nor did the credit union's delay in seeking
the deficiency judgment prevent the Monal-ims from doing

SO

10

The Monalims chose not to fil-e for bankruptcy in hopes that the

credit union would not pursue the deficiency )udgment.

Tndeed,

the Monalims were wel-l- aware that a deficiency judgment was
available to the credit unj-on should they default.
The Monatims' original mortgage contract contained

a

clause requiring them to PaY a deficiency if one remained in the
The credit union's original

event of a forecfosure.

complaint

asked the court to "direcL entry of a deficiency judgment in

favor of Pl-aintiff

court's April 73,

and against Defendants
20L1,

MONALIM.

The

forecl-osure decree further ordered, at

the credit union's request, that the credit union be granted
deficiency judgment. And, the court's

December

a

13, 20II

confirmation of sale order authorized a deficiency ;udgment and
directed that "since the proceeds from the sale of the Mortgaged

Property are insufficient

to fully satisfy the amounts due to

a motion for deficiency judgment

Plainti ff

subsequently be fil_ed by Ptaintiff
IMONALIM]

may

against Defendants

.

As the Monalims owned five investment properties on O'ahu at the
10
time of the forecfosure sale, it seems unlikely that the Monal-ims woufd have
filed for Chapter 7 Bankruptcy at that time.
25

***

FoR puBLrcATroN rN wEsrys HArlAr'r REpoRTs AtiID pAcrFrc REPoRTER

Nothing prevents the Monal-ims from filing

***

for

bankruptcy now, assuming they have a valid basis to fil-e for

bankruptcy. In the context of this protracted forecl-osure
proceeding, where the credit union repeatedly indicated that it
would seek a deficiency judgment, the passage of four years is

not enough to reasonably indicate that the credit union

no

longer sought. to col-lect the nearly $500,000.00 that the
Monal-ims owed.

The Monalims' argument that the deficiency )udgment

will "wipe out" their financial gains is similarly unavailing.
Presumably, the Monalims woul-d not have been able to make such

financial gains if they had paid the credit union the bal-ance of
their outstanding debt after the foreclosure safe in

20L1.

Therefore, any prejudice that the Monalims might suffer by
paying the deficiency is not caused by the credit union's delay,
because the Monalims would be similarly situated had they paid

the deficiency judgment now or in 201,1,. In addition, I

agree

with the ICA that the circuit court's denial of the credit
union's requested interest on the deficiency amount sufficiently
addresses any preludice the Monal-ims might have suffered due to

the delay.
III.

CONCLUSION

I dj-ssent from parts III (C) and (D) of the Majority's
opinion. The record does not support adoption of the
26

new method

*** FoR PUBLICATIoN IN

ITEST'S HAT{AI.I REPORTS AI{D PACIFIC REPORTER

***

to calculate a deficiency judgment. By adopting the new rule,
the Majorj-ty oversteps this court's limited role t.o apply the
1aw to

the facts of the case.
f concur with part III(B) of the Majority's opinion

that the circuit court erred in failing to address the Monalims'
l-aches argument, but I bel-ieve that the l-aches argument fails on

its merits.
I respectfully concur in part and dissent in part.
Mark E. Recktenwald
Paula A.

21

Nakayama

EXHIBIT 7

Electronically Filed
Supreme Court
scwc-16-0000807

scwc-16-0000807

IN

15-MAY-2020

THE SUPRBME COURT OF THE STATE OF HAWAIOf:09

PM

HAWAIIUSA FEDERAL CREDIT UNION,
Respondent. / Plainti ff-Appe llee,

vs.
JONNAVEN JO MONALIM; MISTY MARIE MONALIM,

Petition er s / De fendants -AppeI lants,
and

ASSOCIAT]ON OF APARTMENT OWNERS OF BEACH VILLAS AT KO OLTNA,
by its Board of Direct.ors; KO OLINA COMMUNITY ASSOCIATION, INC

I

a Hawai'i nonprofit corporation;

Respondents /De fendants -Appe1 lees

.

CERTIORAR] TO THE INTERMEDIATE COURT OF APPEALS

(CAAP-16-0000807; CrV. No. 10-1-1388)

ORDER DENY]NG MOTION FOR PARTTAL RECONSTDERATION
C. J., Nakayama, McKenna, Pollack, and [r[ilson'

(By: Recktenwald,

Upon consideration of Petitioners/Defendants-

Appellants' Motj-on for Partial Reconsj-deration filed on May II,
2020 (Motion), the documents submitted in support thereof, and
the record herein,
IT IS HEREBY ORDERED that the Motion is denied.
DATED: HonoluIu, Hawai'i, May 15, 2020.
/s/ Mark E. Recktenwald
/s/ Paula A. Nakayama
/s/ Sabrina S. McKenna
/s/ Richard W. Polfack
/s/ uichael D. Wilson

JJ.

)

EXHIBIT 8

Electronically Filed
Supreme Court
scwc-16-0000807

scwc-16-0000807

30-JUN-2020
02:38 PM

IN THE SUPREME COURT OF THE STATE OF HAWA].I
HAWAIIUSA FEDERAL CREDIT UNTON,
Re spondent / p l- aint i f f -Appe 1 lee,
VS

JONNAVEN JO MONALIM; MISTY MAR]E MONALIM,
Petitioners / De fendants -Appel lants ,

and
ASSOC]ATION OF APARTMENT OWNERS OF BEACH VILLAS AT KO OL]NA,

by its Board of Directors; KO OLINA COMMUNITY ASSOCIATfON, INC.,
a Hawai'i nonprofit corporation;
Re spondent s / Def endants -AppeIlees .
CERTIORARI TO THE INTERMEDIATE COURT OF APPEALS

(CAAP-15-0000807; CIV. No. 10-1-1388)
JUDGMENT ON APPEAL

(By: Po11ack, J., for the courtr )
Pursuant to the opinion of t.he Supreme Court of the

State of Hawai'i entered on April 30, 2020r we vacate the ICA/s
August 16, 20Lg Judgment on Appeal, the circuit court's October

L3, 20L6 "Order Granting in Part and Denying in Part Plaintiff
HawaiiUSA Federal-

Credit Union's Motj-on for Deficiency

Judgment

against Defendants Jonnaven Jo Monalim and Misty Marie Monalim
1

Court: Recktenwald, C.J., Nakayama. McKennaf Pollack, and Wilson, JJ.

Fil-ed January 12, 20L6,' and the October L3, 201,6 "Def iciency
Judgment

against Defendants Jonnaven Jo Monalim and Mist.y Marie

Monalim and in Favor of Pl-aintiff HawaiiUSA Federal Credit
Union.

" This case is remanded to t.he circuit court for further

proceedings consistent with the opinion.
DATED:

Honolulu, Hawai'i, June 30, 2020.
FOR THE COURT:

/

s/ Richard w.

Pol-l-ack

Associate Justice

2

EXHIBTT 9

RULE 14 (gxi) coMPLIANcE

WHEN
2116115

4124117

WHERE

HOW FEDERAL ISSUE RAISED

Opposition
to
Deficiency
Opening
Brief to

Objected on federal due process
grounds, citing, quoting Gelfert, BFP,
true value, federal due process CASES
Objected on federal due process
grounds, citing, quoting Gelfert, BFP,
true value, federal due process cases
Review sought on federal due process
grounds, citing, quoting Gelfert, BFP,
true value, federal due process cases
Continued to argue "Violations of Due
Process of Law" in reply to Credit
Union's opposition to certiorari
Argued Due Process Case; archived at
Hawaii Judiciary Website: No. SCWC1 6-0000807, Friday, January 1 1, 2019
Reference to due process arguments
made by Monalims found in the Majority
Opinion
Sought modified due process relief with
retroactive application where property
owners raised federal issues in defense

lcA
9117118

10122118

1111119

4130120

5111120

Certiorari
Petition to
Hl Sup. Ct.
Reply in
Support of
Petition
Oral
Argument
Hl Sup, Ct.
Hl Sup. Ct
Majority
Opinion
Hl Sup. Ct
Recon
Motion

OUTCOME
Denied
Federal
Question
Denied
Federal
Question
Denied
Awaiting
Decision To
Grant Writ
Taken
Under
Advisement
Due Process
Arguments
Reiected
Federal
Question
Denied

